O’Melveny & Myers LLP
Times Square Tower
7 Times Square
New York, NY 10036-6537

T: +1 212 326 2000
F: +1 212 326 2061
omm.com

March 15, 2021
VIA ELECTRONIC FILING

File Number:

Anton Metlitsky
D: +1 212 326 2291
ametlitsky@omm.com

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Smith v. McKinney, No. 20-554

Dear Mr. Harris:
Pursuant to this Court’s order of March 19, 2020, petitioner in the above-captioned case
respectfully requests that the Court delay distribution of the petition for a writ of certiorari until
April 14, 2021, and set it for consideration at the conference on April 30, 2021.
The petition is currently scheduled for distribution on March 24, 2021 for consideration at
the April 16 conference. In addition to intervening deadlines in other matters (including in this
Court), petitioner’s counsel are dealing with difficulties related to COVID-19, including difficulty
in corresponding with Mr. Smith, who is incarcerated. This three-week delay would permit the
Court to consider the case within two conferences of the original conference, and will not unduly
delay the case’s disposition.
Respondents’ counsel has informed us that his clients consent to this request.

Sincerely,

Anton Metlitsky

cc: Counsel of Record

Century City • Los Angeles • Newport Beach • New York • San Francisco • Silicon Valley • Washington, DC
Beijing • Brussels • Hong Kong • London • Seoul • Shanghai • Singapore • Tokyo

